0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1171
MICHAEL MADISON,

Petitioner,
V.
STATE OF OHIO,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Respondent's Brief in Opposition
Capital Case-Execution Date Set May 15, 2024
contains 5,921 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on March 29 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
· Suite 102
Cincinnati, Ohio 45249
:

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

